      Evaluation Report




OIG-CA-09-007
INFORMATION TECHNOLOGY: Treasury’s Federal Desktop
Core Configuration Deviation Tracking Process Is
Inadequate
February 19, 2009




Office of
Inspector General
Department of the Treasury
Contents


Evaluation Report........................................................................................... 3

    Results in Brief .............................................................................................. 3

    Background .................................................................................................. 4

    Finding and Recommendations…. .................................................................... 7

        OCIO’s FDCC Deviations Tracking Is Inadequate ........................................... 7
        Recommendations..................................................................................... 8

        OCIO’s FDCC Deviations Tracking Policies Are Inconsistent ........................... 8
        Recommendation ...................................................................................... 9


    Appendices

    Appendix     1:      Objective, Scope, and Methodology ........................................ 12
    Appendix     2:      Management Response .......................................................... 13
    Appendix     3:      Major Contributors ................................................................15
    Appendix     4:      Report Distribution ............................................................... 16




                       Treasury’s Federal Desktop Core Configuration Deviation Tracking                    Page 1
                       Process Is Inadequate (OIG-CA-07-009)
Abbreviations


CIO              chief information officer
FDCC             Federal Desktop Core Configuration
IT               information technology
NIST             National Institute of Standards and Technology
OCIO             Treasury Office of the Chief Information Officer
OMB              Office of Management and Budget
POA&M            plan of action and milestones
TCIO             Treasury Chief Information Officer
TTB              Alcohol and Tobacco Tax and Trade Bureau




            Treasury’s Federal Desktop Core Configuration Deviation Tracking   Page 2
            Process Is Inadequate (OIG-CA-07-009)
                                                                                       Evaluation
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General




                      Michael D. Duffy
                      Deputy Assistant Secretary for Information Systems
                         and Chief Information Officer
                      Department of the Treasury

                      We recently completed the evaluation of the Department of the
                      Treasury’s Alcohol and Tobacco Tax and Trade Bureau (TTB) to
                      determine whether sufficient protections exist to prevent intrusions
                      into TTB’s network and systems. 1 We also examined TTB’s
                      compliance with the requirement to implement the National
                      Institute of Standards and Technology (NIST) Federal Desktop Core
                      Configuration (FDCC). 2 During our evaluation, several matters
                      relating to the Treasury Office of the Chief Information Officer’s
                      (OCIO) policies and procedures for tracking FDCC deviations came
                      to our attention. We are issuing this report to address these
                      matters.

                      We performed our fieldwork at TTB from January through July
                      2008. We performed subsequent follow-up work with OCIO
                      through January 2009. Appendix 1 contains a detailed description
                      of our objective, scope, and methodology.


Results in Brief
                      We determined that Treasury’s FDCC deviation tracking policies
                      and procedures need improvement. Specifically, we noted that
                      while OCIO tracks the number of deviations reported by the
                      bureaus on a monthly basis, it does not track or evaluate the

1
  Information Technology: Network Security at the Alcohol and Tobacco Tax and Trade Bureau Could Be
Improved, OIG-CA-09-005 (Dec. 18, 2008).
2
  Office of Management and Budget Memorandum (OMB) M-07-11, “Implementation of Commonly
Accepted Security Configurations for Windows Operating Systems” (Mar. 22, 2007), required agencies
to implement common security configurations developed by NIST for Windows Vista and XP operating
systems by February 1, 2008.
                    Treasury’s Federal Desktop Core Configuration Deviation Tracking         Page 3
                    Process Is Inadequate (OIG-CA-07-009)
              details associated with each deviation. For instance, OCIO does not
              keep track of the name of the FDCC setting that will not be
              implemented, description of the FDCC setting, bureau justification
              for not implementing the FDCC setting, and estimated remediation
              date for each deviation. In addition, we found that the Treasury
              Chief Information Officer’s (TCIO) policies provide inconsistent
              instructions on tracking security weaknesses.

              Our two overall findings are as follows:

              1. OCIO’s FDCC deviations tracking is inadequate.
              2. OCIO’s FDCC deviations tracking policies are inconsistent.

              We are making the following three overall recommendations to the
              Treasury Chief Information Officer (CIO) to address the above
              issues:

              1. Expand OCIO’s FDCC deviation tracking to include the name of
                 the FDCC setting that will not be implemented, description of
                 the FDCC setting, bureau justification for not implementing the
                 FDCC setting, and estimated remediation date for each
                 deviation, if applicable.
              2. Review and evaluate the legitimacy of the deviations reported
                 by the bureaus.
              3. Replace or update TCIO M-07-04 and M-08-04 to provide
                 consistent guidance for tracking FDCC deviations.

              Treasury CIO concurred with our findings and recommendations
              and provided plans for corrective actions (see appendix 2).

Background
              Organized into bureaus and offices, Treasury encompasses a wide
              range of programs and operations. The Treasury bureaus include
              TTB, the Bureau of Engraving and Printing, the Bureau of the Public
              Debt, the Community Development Financial Institutions Fund, the
              Financial Crimes Enforcement Network, the Financial Management
              Service, the Internal Revenue Service, the Office of the Comptroller
              of the Currency, the Office of Inspector General, the Office of
              Thrift Supervision, the United States Mint, and the Treasury
              Inspector General for Tax Administration. The Treasury offices are
              composed of divisions headed by Assistant Secretaries and Under
             Treasury’s Federal Desktop Core Configuration Deviation Tracking   Page 4
             Process Is Inadequate (OIG-CA-07-009)
                      Secretaries who are primarily responsible for policy formulation and
                      overall management of Treasury. These offices are collectively
                      known as Departmental Offices.

                      Office of Management and Budget (OMB) Memorandum 07-11,
                      “Implementation of Commonly Accepted Security Configurations
                      for Windows Operating Systems,” required that agencies
                      implement common security configurations developed by NIST for
                      Windows Vista and XP operating systems by February 1, 2008. 3
                      Common security configurations provide a baseline level of
                      security, reduce risk from security threats and vulnerabilities, and
                      save time and resources. They allow agencies to improve system
                      performance, decrease operating costs, and help ensure public
                      confidence in the confidentiality, integrity, and availability of
                      government information. OMB Memorandum 07-18, “Ensuring New
                      Acquisitions Include Common Security Configurations,” requires
                      new acquisitions to include these configurations and information
                      technology (IT) providers to certify that their products operate
                      effectively using these configurations. 4

                      OMB recognizes that some agencies may have difficulty
                      implementing all the FDCC requirements because of technical
                      issues. On March 20, 2007, OMB issued a memorandum
                      instructing agencies to provide documentation to NIST of any
                      deviations from the FDCC common security baseline and the
                      rationale for such deviations. 5 Additionally, OMB instructed
                      agencies to report FDCC compliance through their organization’s
                      CIO hierarchy. Compliance is expressed in terms of numbers of
                      compliant versus noncompliant computers. For noncompliant
                      computers, CIOs must provide a representative sample of Security
                      Content Automation Protocol–based assessment reports. 6 This
                      information should be sent to OMB with a copy to NIST, which will
                      perform trend analysis on all federal data on noncompliant
                      computers and present findings to OMB.

3
  OMB M-07-11, “Implementation of Commonly Accepted Security Configurations for Windows
Operating Systems” (Mar. 22, 2007).
4
  OMB M-07-18, “Ensuring New Acquisitions Include Common Security Configurations” (June 1, 2007).
5
  Memorandum from Karen Evans, Administrator, Office of E-Government and Information Technology,
to Chief Information Officers, “Managing Security Risk By Using Federal Desktop Core Configuration”
(Mar. 22, 2007).
6
  The Security Content Automation Protocol is a method for using specific standards to enable
automated vulnerability management, measurement, and policy compliance evaluation (e.g., Federal
Information Security Management Act compliance).
                    Treasury’s Federal Desktop Core Configuration Deviation Tracking       Page 5
                    Process Is Inadequate (OIG-CA-07-009)
                       The Treasury CIO is responsible for implementing FDCC for
                       Treasury and reporting compliance to OMB and NIST. OCIO policies
                       relating common security configurations or FDCC are as follows:

                       •   TCIO memorandum M-07-01, “Security Configuration and
                           Vulnerability Management Policy” (January 30, 2007), requires
                           Treasury bureaus and offices to use the NIST security
                           configuration checklists repository. This memorandum was
                           designed to address the finding in the 2006 Federal Information
                           Security Management Act report that Treasury lacks agency-
                           wide configuration management policy.

                       •   TCIO memorandum M-07-04 requires bureaus to use the OMB-
                           specified Windows XP and Vista configuration settings as the
                           basis for deployed standard security configurations. TCIO M-07-
                           04 also states that any security weaknesses identified during
                           the development or execution of bureau plans regarding use of
                           common security configurations should be entered in the plan of
                           action and milestone (POA&M) 7 process as described in the
                           TCIO memorandum M-06-01, “Improving the Department’s
                           Security Plan of Action and Milestone (POA&M) Process”
                           (March 24, 2006).

                       •   TCIO memorandum M-08-04 states that deviations from the
                           FDCC baselines for Vista and XP (and other platforms as FDCC
                           settings are established) are to be considered weaknesses and
                           tracked for remediation via bureau POA&M process unless a
                           bureau has documented a business requirement for the
                           deviation(s) as an element of a modified FDCC baseline
                           configuration. FDCC settings for Vista and XP are expected to
                           change over time. A single POA&M entry can address one or
                           multiple deviations, provided the deviations are broken out
                           elsewhere to help ensure completeness and so that remediation
                           can be tracked.




7
  Agency CIOs, working with other appropriate agency officials, are responsible for developing a
POA&M for each program and system for which a weakness was identified. The purpose of a POA&M
is to help agencies identify, assess, prioritize, and monitor progress of corrective efforts for security
weaknesses in programs and systems.
                      Treasury’s Federal Desktop Core Configuration Deviation Tracking            Page 6
                      Process Is Inadequate (OIG-CA-07-009)
Findings and Recommendations


Finding 1 OCIO’s FDCC Deviations Tracking Process Is Inadequate

               We determined that the OCIO’s FDCC deviations tracking process
               is inadequate. Even though OCIO tracks the number of deviations
               reported by the bureaus on a monthly basis, it does not track the
               details associated with each deviation and the bureaus’ rationale
               for the deviation. For example, during our review of TTB’s FDCC
               compliance, we requested that OCIO provide us with a copy of
               TTB’s deviation submission for April 2008. After reviewing TTB’s
               submission to OCIO, we were able to verify that TTB had reported
               11 deviations to OCIO. However, we were unable to verify the
               details of these deviations because OCIO does not track this
               information. Specifically, OCIO does not keep track of the FDCC
               setting name, description, and the justification for the deviated
               settings. Also, we could not determine whether OCIO was able to
               evaluate the justification for the deviation or whether the deviation
               reflected a reasonable business requirement.

               In the March 20, 2007 memorandum to CIOs, OMB instructed
               agencies to provide documentation to NIST of any deviations from
               the FDCC common security baseline and the rationale for doing so.
               Additionally, OMB instructed agencies to report FDCC compliance
               through their organization’s CIO hierarchy. The Treasury CIO is
               responsible for implementing FDCC for Treasury and reporting
               compliance to OMB and NIST.

               It is vital to maintain complete records on all FDCC deviations,
               including deviation details such as the FDCC setting name and
               description, as well as any bureau rationale for the deviations. If
               the details of the deviations are not tracked, OCIO may not have an
               effective method of overseeing and reviewing the legitimacy of the
               reported deviations. In addition, OCIO cannot draw conclusions
               based solely on the number of deviations reported by bureaus;
               additional detail is necessary. Failure to maintain complete
               information on FDCC deviations could adversely affect the
               accuracy of Treasury’s FDCC deviations submission to NIST for
               OMB reporting.

              Treasury’s Federal Desktop Core Configuration Deviation Tracking   Page 7
              Process Is Inadequate (OIG-CA-07-009)
               Recommendations

               We recommend that the Treasury CIO

                1. expand FDCC deviation tracking to include the name of the
                   FDCC setting that will not be implemented, description of the
                   FDCC setting, bureau justification for not implementing the
                   FDCC setting, and estimated remediation date for each
                   deviation, if applicable; and
                2. review and evaluate the legitimacy of the deviations reported
                   by the bureaus.

Finding 2 OCIO’s FDDC Deviations Tracking Policies Are Inconsistent

               During our evaluation at TTB, we found that the following two
               TCIO policies provide inconsistent instructions to the bureaus for
               tracking security weaknesses:

               •   TCIO M-07-04, “Implementation of Common Security
                   Configurations for IT Systems Using Windows XP or Vista”
                   (April 17, 2007)

               •   TCIO M-08-04, “Additional Cyber Security Controls and
                   Recommended Practices,” section CVM.11 (June 27, 2008)

               On April 17, 2008, OCIO issued TCIO M-07-04 as its guidance to
               Treasury bureaus for implementing common security configurations
               for IT Systems using Windows XP or Vista. Specifically, TCIO M-
               07-04 also states, “consistent with the requirements set forth in
               OMB memorandums M-O7-11, the bureaus are to use the OMB-
               specified Windows XP and Vista configuration settings, as the
               basis for deployed standard security configuration.” TCIO M-07-04
               requires that “any security weaknesses identified during the
               development or execution of bureau plans regarding use of
               common security configurations should be entered into the POA&M
               process as described in the TCIO M-06-01.” TCIO M-07-04 was
               issued to implement requirements in OMB-07-11 directing agencies
               with Windows XP deployed and/or that plan to upgrade to the
               Vista operating system to adopt the FDCC, also known as
               commonly accepted security configurations.

              Treasury’s Federal Desktop Core Configuration Deviation Tracking   Page 8
              Process Is Inadequate (OIG-CA-07-009)
 On June 27, 2008, OCIO issued TCIO memorandum M-08-04,
 stating that “deviations from the FDCC baselines for Vista and XP
 (and other platforms as FDCC settings are established) shall be
 considered weaknesses and tracked for remediation via bureau
 POA&M process unless a bureau has documented a business
 requirement for the deviation(s) as an element of a modified FDCC
 baseline configuration.”

 We contacted OCIO about the unclear guidance. According to
 OCIO, bureaus are not required to track an FDCC deviation as a
 security weakness in the POA&M process as long as they have
 documented the rationale for the deviation. However, TCIO M-08-
 04 does not contain any clause to nullify the policy requirement in
 TCIO M-07-04 that “any security weaknesses identified during the
 development or execution of bureau plans regarding use of
 common security configurations should be entered into the POA&M
 process.”

 The Treasury CIO is responsible for providing Treasury-wide
 leadership and direction for all areas of information and technology
 management, as well as for oversight of a number of IT programs.
 Among these programs is Cyber Security, whose mission is to
 develop and implement IT security policies and provide policy
 compliance oversight for both unclassified and classified systems
 managed by each of Treasury’s operating bureaus and offices. The
 Treasury CIO has given the Associate CIO for Cyber Security
 responsibility for managing and directing OCIO’s Cyber Security
 program, as well as for ensuring compliance with applicable
 statues, regulations, policies, and guidance.

 OCIO policies and guidance on tracking FDCC deviations tracking
 remain unclear and inconsistent and, as a result, subject to
 interpretation. Therefore, confusion may occur and compliance
 with IT security policy may be impossible to effectively enforce.


 Recommendation

 We recommend that Treasury CIO

 3. replace or update TCIO M-07-04 and M-08-04 to provide
 consistent guidance for tracking FDCC deviations.

Treasury’s Federal Desktop Core Configuration Deviation Tracking   Page 9
Process Is Inadequate (OIG-CA-07-009)
 Management Response

 As noted in appendix 2, OCIO agreed with our findings and
 recommendations, and will be implementing our recommendations
 by May 2009.

 OIG Response

 We agree that the formal steps OCIO has proposed are responsive
 to the intent of our findings and recommendations.




Treasury’s Federal Desktop Core Configuration Deviation Tracking   Page 10
Process Is Inadequate (OIG-CA-07-009)
                                    ******

 If you have any questions, please contact me at (202) 927-5171 or
 Abdirahman Salah, IT Specialist, Office of Information Technology
 Audits, at (202) 927-5763. Major contributors to this report are
 listed in appendix 2.


 /s/

 Tram J. Dang, Director
 Office of Information Technology Audits




Treasury’s Federal Desktop Core Configuration Deviation Tracking   Page 11
Process Is Inadequate (OIG-CA-07-009)
                      Appendix 1
                      Objective, Scope, and Methodology




                      We recently completed an evaluation to determine whether
                      sufficient protections exist at the Alcohol and Tobacco Tax and
                      Trade Bureau (TTB) to prevent intrusions into TTB’s network and
                      systems. 8 We also examined TTB’s compliance with the
                      requirement to implement the National Institute of Standards and
                      Technology Federal Desktop Core Configuration (FDCC). 9 Our
                      primary objective for this report was to address the matters that
                      came to our attention during our evaluation at TTB relating to the
                      Office of Chief Information Officer’s (OCIO) policies and procedures
                      for tracking FDCC deviations. To accomplish this objective, we
                      analyzed documents received from TTB and OCIO relating to
                      FDCC, reviewed Treasury Chief Information Officer policies, and
                      contacted TTB and OCIO personnel for clarification.

                      We performed our fieldwork at TTB from January through July
                      2008. We performed subsequent follow-up work with OCIO
                      through January 2009. Fieldwork was conducted at TTB
                      headquarters and at OCIO in Washington, D.C.




8
  Information Technology: Network Security at the Alcohol and Tobacco Tax and Trade Bureau Could Be
Improved, OIG-CA-09-005 (Dec. 18, 2008).
9
  Office of Management and Budget Memorandum (OMB) M-07-11, “Implementation of Commonly
Accepted Security Configurations for Windows Operating Systems” (Mar. 22, 2007), required agencies
to implement common security configurations developed by NIST for Windows Vista and XP operating
systems by February 1, 2008.
                    Treasury’s Federal Desktop Core Configuration Deviation Tracking      Page 12
                    Process Is Inadequate (OIG-CA-07-009)
 Appendix 2
 Management Response




Treasury’s Federal Desktop Core Configuration Deviation Tracking   Page 13
Process Is Inadequate (OIG-CA-07-009)
 Appendix 2
 Management Response




Treasury’s Federal Desktop Core Configuration Deviation Tracking   Page 14
Process Is Inadequate (OIG-CA-07-009)
 Appendix 3
 Major Contributors

 Office of Information Technology Audits

 Tram J. Dang, Director
 Abdirahman M. Salah, IT Specialist (Lead)
 Gerald J. Steere, IT Specialist
 Jane Lee, IT Specialist
 Larissa Klimpel, IT Specialist
 Shiela S. Michel, Referencer




Treasury’s Federal Desktop Core Configuration Deviation Tracking   Page 15
Process Is Inadequate (OIG-CA-07-009)
 Appendix 4
 Report Distribution

 Department of the Treasury

     Office of Accounting and Internal Control
     Office of Strategic Planning and Performance Management

 Office of Management and Budget

     Office of Inspector General Budget Examiner




Treasury’s Federal Desktop Core Configuration Deviation Tracking   Page 16
Process Is Inadequate (OIG-CA-07-009)
